<html>
<title> - BRIEFING ON OPERATION MOSHTARAK IN HELMAND PROVINCE, AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-869]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-869

    BRIEFING ON OPERATION MOSHTARAK IN HELMAND PROVINCE, AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 22, 2010

                               __________

         Printed for the use of the Committee on Armed Services


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





        Available via the World Wide Web: http://www.fdsys.gov/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
  64-644 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

    Briefing on Operation Moshtarak in Helmand Province, Afghanistan

                           february 22, 2010

                                                                   Page

Flournoy, Hon. Michele A., Under Secretary of Defense for Policy.     4
Paxton, Lt. Gen. John M., Jr., USMC, Director for Operations, J-
  3, The Joint Staff.............................................     6

                                 (iii)

 
    BRIEFING ON OPERATION MOSHTARAK IN HELMAND PROVINCE, AFGHANISTAN

                              ----------                              


                       MONDAY, FEBRUARY 22, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:31 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, E. 
Benjamin Nelson, Hagan, McCain, and LeMieux.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; William G.P. Monahan, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; and David M. 
Morriss, minority counsel.
    Staff assistants present: Kevin A. Cronin, Paul J. Hubbard, 
and Jennifer R. Knowles.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Greta Lundeberg, assistant to 
Senator Bill Nelson; Ann Premer, assistant to Senator Ben 
Nelson; Patrick Hayes and Mike Pevzner, assistants to Senator 
Bayh; Tyler Smith, assistant to Senator McCaskill; Jennifer 
Barrett, assistant to Senator Udall; Perrin Cooke, assistant to 
Senator Hagan; Roger Pena, assistant to Senator Hagan; Jason 
Van Beek, assistant to Senator Thune; Brian W. Walsh, assistant 
to Senator LeMieux; and Chip Kennett, assistant to Senator 
Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. First let us 
welcome our briefers this afternoon, Under Secretary of Defense 
for Policy Michele Flournoy, and Lieutenant General John 
Paxton, Director for Operations, J-3, the Joint Staff. They 
will be providing the committee with an update on Operation 
Moshtarak in Helmand Province, Afghanistan, which is named for 
the Dari word that means ``together.'' This operation is being 
conducted by combined International Security Assistance Force 
(ISAF) and Afghan forces totaling around 15,000, deployed side-
by-side to the central Helmand River Valley, including the 
former Taliban stronghold of Marjah, to support extending the 
authority of the Government of Afghanistan to the Afghan 
population there.
    It represents the most significant campaign since President 
Obama concluded his strategy review in December and it is a 
critical test of the counterinsurgency strategy announced by 
the President and implemented by General Stanley McChrystal.
    While much of America is watching the Olympics and the 
daring of our athletes, we must keep a constant eye on the 
extraordinary bravery and skill of our troops and their allies. 
An important component of General McChrystal's campaign plan is 
the emphasis on putting the Government of Afghanistan and the 
Afghan National Security Forces (ANSF) in charge of their 
country's security. Afghan Government officials, including 
President Karzai, Defense Minister Wardak, and Interior 
Minister Atmar, have played active roles, apparently, in 
planning and approving operations.
    According to Marine Brigadier General Larry Nicholson, 
Afghan forces are partnered at every level with the marines. He 
says these Afghan forces are not ``cosmetic,'' but are in the 
fight. News reports have also said that the ratio of Afghan to 
U.S. troops in Marjah is almost 1 to 2, one Afghan soldier to 
two coalition troops. Now, that's considerable progress from 
the 1 to 5 ratio which was the case when I visited the marines 
in Helmand Province last September.
    I'm particularly interested in hearing this afternoon about 
the performance of ANSFs, including the extent to which they 
are in the lead in operations.
    It appears that ISAF and Afghan forces have made steady 
progress in removing the Taliban and restoring security to 
Marjah and central Helmand. But this has come at a very heavy 
price. Twelve North Atlantic Treaty Organization (NATO) 
soldiers, including at least eight Americans and three British, 
have died in the offensive so far. Many more have been wounded.
    The cause they fight for is a vital one to our security. It 
is also far more complex than many military operations, because 
a key aspect of the counterinsurgency plan is to provide 
governance. It has been reported that the Afghans have prepared 
a ``government in a box'' to quickly begin providing services 
to the Afghan people once security has been reestablished. 
General David Petraeus, Commander of U.S. Central Command 
(CENTCOM), has called this operation the ``initial salvo of a 
12- to 18-month military campaign.''
    Ultimately, as General McChrystal has said, this is a war 
of perceptions, which will be measured by whether the Afghan 
Government, with our support, succeeds in gaining the trust of 
local Afghan people.
    Finally, I hope our briefers will address the plans for 
providing incentives to low-level Taliban fighters to renounce 
violence and reintegrate with Afghan society. Also of interest 
would be any developments in the reconciliation process between 
the Afghan Government and senior-level Taliban leaders. As 
General Petraeus has noted, reconciliation is not done with 
one's friends, but with one's enemies.
    I want to again thank our briefers for coming this 
afternoon. We look forward to hearing from them, and our 
thoughts and our prayers are with the men and women who, again 
while putting on the uniform of this great Nation, are in 
harm's way as we meet here this afternoon.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. Let me thank our 
distinguished witnesses for briefing us today on Operation 
Moshtarak in Afghanistan. I join you in honoring the brave 
Americans, along with our NATO and Afghan allies, who are now 
serving and sacrificing in this consequential operation.
    The most important thing I think we should remember today 
is that the campaign in and around Marjah remains a work in 
progress, just like the broader strategy of which it is a part. 
There's much work yet to be done. So we should refrain from 
drawing firm conclusions at this time, either overly optimistic 
or overly pessimistic ones.
    First, I would like to address the effectiveness of ANSF. 
There have already been press release reports about how much 
the Marjah operation has been NATO-led rather than Afghan-led, 
and this raises concerns about the ability of the Afghan forces 
to operate effectively and professionally on their own one day. 
We should remember, I think, that the early operations of the 
surge in Iraq were nearly all U.S.-planned, U.S.-led, and U.S.-
fought. It was only by living and fighting and sacrificing 
together with American troops over time that Iraqi security 
forces (ISF) grew more effective. We should work urgently to 
foster a similar development with the Afghan forces, but I 
don't think we should expect to see the results that we need 
overnight.
    The same goes for the Afghan Government. Key pillars of the 
Marjah campaign plan are to ``hold'' and to ``build,'' the 
civilian effort to help Afghans deliver better governance and 
economic opportunity once the Taliban is cleared out. Indeed, 
this effort will largely determine the overall success of the 
operation itself. We should expect this process of the Afghan 
Government reform and capacity-building to be one step forward 
and two steps back, and two steps forward and one step back. 
I'm eager to hear how our civilian agencies plan over the 
coming months to support the Afghan authorities and the success 
of Operation Moshtarak.
    Finally, Pakistan. The recent capture of Mullah Baradar and 
other high-value Afghan Taliban leaders is obviously a good 
news story. The question is what does this imply about 
Pakistan's strategic orientation. Are the Pakistani Army and 
Interservices Intelligence (ISI) taking a more aggressive 
stance towards the Afghan Taliban? I'd be cautious about 
reading too much into these positive recent developments, but 
we certainly are pleased to hear it.
    I'm eager to hear how our distinguished witnesses assess 
Pakistan's recent success, as well as many others surrounding 
our campaign in Afghanistan. I thank the witnesses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    After we conclude our hearing here, we will move to a 
closed session, which will be in the Capitol Visitor Center, 
Room SVC-217.
    Again, with thanks, we will call first on you, Secretary 
Flournoy.


   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Flournoy. Senator Levin, distinguished members of the 
committee: Thank you very much for giving us the opportunity to 
give you an update on our ongoing efforts in Afghanistan. You 
all understand the importance of the challenges that we face 
there, and the depth of our commitment to meeting those 
challenges.
    When President Obama first took office just over a year 
ago, we confronted a pretty bleak situation in Afghanistan. 
Many of our early gains had eroded, the Taliban was re-
ascendant in many parts of the country, and Afghan confidence 
in the coalition was in decline. President Obama ordered an 
immediate strategy review and in the course of that preliminary 
review we made a number of changes. The United States added 
about 30,000 troops last spring and NATO appointed General 
McChrystal as the commander of ISAF.
    General McChrystal immediately began to emphasize the 
importance of counterinsurgency as a strategy and prioritized 
protecting the Afghan people over killing the enemy. He issued 
a series of new tactical directives for ISAF, everything from 
partnering with the Afghans to convoy driving behavior.
    So far, the evidence suggests that this fundamental shift 
in approach has been extremely successful. The percentage of 
Afghan civilian casualties caused by coalition actions has 
dropped substantially. This has produced significant shifts in 
the Afghan people in terms of their attitudes towards ISAF. 
Compared to a year ago, Afghans today report that they are far 
more optimistic about the future and have far more confidence 
in our ability to prevail over the Taliban and other violent 
extremists.
    We've seen other positive indications in the last year as 
well. Although the Afghan elections in August were certainly 
marred by electoral fraud, the new government was ultimately 
formed and, despite serious issues such as corruption that 
remain, most Afghans have a degree of confidence in their new 
government.
    In his December speech at West Point, the President 
announced a number of refinements to our strategy, which you're 
familiar with: the addition of 30,000 additional troops in 
places where they're needed most by the summer of 2010, 
supplemented by several thousand additional NATO and non-NATO 
troops. This strategy refinement focuses on reversing the 
insurgency's momentum and accelerating ANSF growth, while also 
improving their quality.
    We are also surging civilian assistance to develop both 
national and sub-national governance capacity, using economic 
development to enhance government legitimacy. We've also 
assured our Afghan partners that this kind of assistance will 
be enduring.
    Our refined strategy has received very strong support from 
our allies and partners. Our NATO allies and non-NATO partners 
have already pledged more than 9,000 additional troops to our 
efforts and we have another force generation conference at the 
end of this month.
    We've also seen some positive steps taken by the Karzai 
Government. At the January 28th London conference, President 
Karzai reaffirmed his government's commitment to peace, 
reconciliation, reintegration, developing its security forces, 
good governance, fighting corruption, and so forth. He has said 
all the right things.
    The London conference also produced a renewed international 
commitment to strengthen civil-military cooperation in 
Afghanistan. This was reflected in part by the announcement of 
a new NATO senior civilian representative, who will be General 
McChrystal's civilian counterpart to coordinate things on the 
civilian side, as well as a new United Nations special 
representative, Stefan de Mistura, representing the Secretary 
General in Afghanistan.
    Now, of course, none of these steps by themselves 
guarantees success. As Senator McCain said, this is a work in 
progress. But we are seeing conditions begin to develop that we 
believe will ultimately be necessary for success, and for the 
first time we believe we have the right mission, the right 
strategy, the right leadership, and the right level of 
resources in support of the mission.
    Our efforts to build the capacity of the ANSF are again a 
work in progress, but showing some progress. We believe we're 
on track to meet our end strength goals for fiscal year 2010 
and that would be 134,000 for the army and about 109,000 for 
the police. We recognize, however, serious challenges related 
to recruiting, retention, and attrition. But we do see our 
Afghan partners beginning to take steps to address issues of 
pay and benefits to raise both the retention of the force and 
the quality of the force. We have set targets for fiscal year 
2011 that we believe are both achievable and sustainable and we 
will continue working towards those.
    We're also seeing some positive signs, in terms of using or 
leveraging our development assistance in support of building 
governance capacity. Last week I had the chance to visit the 
Arghandab Valley in Regional Command-South (RC-South), which 
many used to call the heart of darkness. This is a place with a 
storied history, a place where the Soviets never managed to 
achieve their goals. It is a place where now, after very 
serious fighting in the summer and fall, we have U.S. infantry 
soldiers working with a Canadian civil-military detachment, an 
operational mentor and liaison team, along with civilians from 
State Department, U.S. Agency for International Development, 
and Department of Agriculture, partnering very closely with a 
Afghan district governor, local tribal leadership, an Afghan 
National Army (ANA) kandak, and local Afghan police, to really 
begin to develop programs that will provide the foundation for 
governance and economic development.
    What's there are the seeds of transforming a very tough 
environment into what we're trying to achieve in Afghanistan 
more broadly. By using development to support Afghan 
governance, we see a district governor that's now become an 
energetic ally and who's working overtime to resolve disputes 
and jump-start projects with the local community.
    I don't want to suggest that achieving success will be 
simple or easy. Far from it. We have many challenges as we move 
forward. We're still struggling to improve retention and 
decrease attrition with the ANSF. We have a lot to do to 
improve the quality of the training that we offer our Afghan 
partners, but we are engaged in very aggressive diplomatic 
efforts to get our partners to provide additional trainers and 
mentoring teams for the ANSF and we believe we will be 
successful there.
    Inevitably, we will face some setbacks as we make progress. 
We need to prepare for the possibility that things may get 
harder before they get better. As additional U.S. and coalition 
forces flow into key geographic areas where we have not had an 
ISAF presence before, we may well see increases in violence, 
and increases in attacks on our forces. Our adversaries are 
cunning, they are adaptable, they are tenacious, and we will 
need to continually reaffirm our commitment and refine our 
tactics in response.
    As all of you know, the operations in Helmand are going 
well so far. I will leave the specifics to Lieutenant General 
Paxton, but I do want to emphasize that this really is the 
first large-scale effort to fundamentally change how we are 
doing business, to protect the population as the top priority, 
to work very closely with our Afghan partners, and to ensure 
that the ``clear'' operations that we're conducting actually 
pave the way for the ``hold'' and ``build'' with regard to 
governance and economic development.
    I think you've seen an extraordinary level of civil-
military planning and engagement with Afghan partners in the 
preparing of this operation, not only the government, but also 
local tribes and populations. But again, these are the early 
days, and it is too soon to draw any firm conclusions.
    Let me just say, however, in conclusion that at this point 
in time I am cautiously optimistic. I do believe that we have 
the right mission, the right strategy, the right leadership, 
and the right resources. As we move forward, there will be 
challenges, but we will continue to adjust and ultimately I 
believe we will make progress towards our objectives.
    Let me conclude there and turn it over to General Paxton to 
provide you more detail on the operations themselves. Thank 
you.
    Chairman Levin. Thank you, Secretary Flournoy.
    General Paxton.

 STATEMENT OF LT. GEN. JOHN M. PAXTON, JR., USMC, DIRECTOR FOR 
                OPERATIONS, J-3, THE JOINT STAFF

    General Paxton. Good afternoon, Mr. Chairman, Senator 
McCain, and distinguished members of the committee. Thank you 
for your time today. As Secretary Flournoy noted, my remarks 
will focus on the current operations in the Central Helmand 
River Valley and I'd like to explain how these operations will 
fit into General McChrystal's overall context. From there I'd 
like to move to how the operations were planned. The third 
point will be how we work with our Afghan partners, and from 
there I'll take a look at where the operations are in their 
current phase of execution and then explain where we expect 
them to go.
    In June 2009, after assuming command of ISAF, General 
McChrystal embarked on an assessment of the situation in 
Afghanistan. He developed the campaign plan to provide a secure 
environment that would enable improved governance and 
development in all of Afghanistan. At the heart of the campaign 
plan were the requirements to: (a) protect the Afghan people; 
(b) enable the ANSF; (c) neutralize the malign influences; and 
then, (d) support the extension of governance. Our operations 
today in the Central Helmand River Valley are directly tied to 
all four of those objectives.
    In his assessment, General McChrystal identified southern 
Afghanistan as the main effort for the campaign. In southern 
Afghanistan, we intend to clear high population areas like the 
Central Helmand River Valley that are threatened by the 
insurgency. Right now our two largest points are to separate 
the insurgents from the population and then to demonstrate our 
resolve and our commitment to stay, as Senator McCain talked 
about earlier, so that we can gain credibility with the people 
of Afghanistan.
    More importantly, our efforts are trying to build on the 
capabilities of the ANSF and the legitimacy of the Afghan 
Government. General McChrystal views these operations as 
essential to enable ISAF to seize the overall initiative in the 
campaign nationwide, to reverse the momentum of the insurgency, 
and to demonstrate resolve to the international community and, 
most importantly, to the people of Afghanistan.
    The operation being executed, as noted by Senator Levin, 
Moshtarak, which means ``together,'' is an accurate description 
of how the operation was planned and, most importantly, how 
it's being conducted today. Operation Moshtarak is the first 
operation in Afghanistan where coalition planning has been 
fully integrated with our Afghan partners from the very start. 
This planning has been integrated at all levels, from the 
provincial government, led by Governor Mangal, all the way up 
to the national level in Kabul.
    It should be noted that the planning was not confined to 
just ANSF. Planning for Operation Moshtarak was integrated with 
other efforts throughout the Afghan Government. President 
Karzai was briefed on these operations and now has cabinet-
level ownership of the operation itself.
    Moshtarak is being executed in the four traditional phases 
of the counterinsurgency operation: the ``shape,'' the 
``clear,'' the ``hold,'' and the ``build.'' Extensive shaping 
operations over the last several months were executed prior to 
the start of the ``clear'' operation. As noted before, these 
were done at not only the army level, but at the police level 
and the special operations forces level. So we were partnered 
in all three of those evolutions.
    Shaping efforts involved Afghan and coalition forces. Most 
importantly, these shaping operations involved extensive 
interaction with local tribal leaders to ensure that their 
concerns were addressed before the start of the clearing 
operations as well as the current phase in the operation.
    The ``clear'' phase was embarked upon last Saturday, 
February 13. The clearing operations are being conducted with 
five ANA kandaks, roughly battalion-sized units, and three 
Afghan commando companies. In addition to the Afghan Army 
units, the operation will make use of about 1,000 Afghan 
National Civil Order Police (ANCOP), the Afghan special police 
that is nationally recruited. We are also in the process of 
training approximately a thousand new Afghan National Policemen 
who will reinforce Nad'Ali and Marjah later in the operation.
    If I can at this time, I'd just like to draw your attention 
to the map here to my left and to your right, which shows you 
the geographic boundaries of the upper Central Helmand River 
Valley. It's a triangular area. It's roughly bordered by 
Garmser on the south, Lashkar Gah on the northeast, Marjah on 
the west, and Nad'Ali in the north. So that's the area where 
the operations are currently being confined to.
    In order to meet the coalition force requirements for 
Operation Moshtarak, we accelerated the deployment of two 
Marine battalions from Camp Lejeune, North Carolina, which were 
made available by President Obama's decision to increase the 
force levels in Afghanistan. British forces have also been 
brought in, to bring the total size of the force to between 
8,000 and 10,000 ISAF and ANSF combined troops.
    Prior media announcements of the operation likely persuaded 
some of the Taliban leaders to flee the area, which has 
decreased the morale of those fighters who have remained. 
Within the first days of the clearing operations, the 
insurgents appeared to be in disarray. ISAF and ANSF 
encountered only sporadic insurgent contact or organized 
resistance. The insurgents appear to be focused on self-
preservation rather than on an organized defense of the Central 
Helmand River Valley.
    Pockets of resistance, however, still remain in Nad'Ali 
district. In Marjah there is stiff resistance from the 
remaining insurgents. The U.S. Marines, in partnership with the 
ANSF, are still fighting a series of intense actions in that 
area. Understanding how effective our forces are, the 
insurgents will continue to use improvised explosive devices 
(IEDs) as their primary weapon system. As many of you know, 
between 65 and 70 percent of our casualties continue to come 
from the IEDs.
    There are encouraging signs that parts of Marjah are now 
starting to clear, that the ANCOP forces have been introduced 
into the area, and that it's now secure enough, as we noted 
last weekend, to even bring Governor Mangal back into Marjah 
for a series of successful meetings with the tribal elders. 
Ground commanders assess that the population is broadly on our 
side and is likely to remain so, as long as they can be 
persuaded that we're making a genuine commitment to ensure 
their long-term security.
    We are satisfied with the pace of operations so far and 
have decided to take a very deliberate approach to the 
continued clearing operations in order to protect the 
population. There have been isolated incidents of regrettable 
civilian casualties. We have seen the Taliban use the civilians 
as human shields in some cases.
    In the weeks ahead, when conditions are appropriate--and I 
stress here again the conditions-based aspect of the 
operation--we will transition to the ``hold'' and ``build'' 
phases of Operation Moshtarak. Our efforts during these two 
phases will focus on quickly rebuilding damaged infrastructure, 
on offering support to local communities, and supporting the 
reconstitution of the Afghan Government and all institutions in 
Helmand. During the ``hold'' and ``build'' phases of the 
operations, the ANSF on the ground will demonstrate the 
presence and resolve of the central Afghan Government.
    As I conclude my remarks, I would like to reiterate what 
both Senator McCain and Secretary Flournoy said, that, in spite 
of recent successes, we know that this is going to be a hard 
fight. We know that there are going to be pockets of intense 
resistance and there will be, as you said, Senator, perhaps one 
step forward, two steps back, for a while. But we're committed 
to the process and the work that lies ahead in partnership with 
our Afghan partners and coalition partners.
    Thank you for your time.
    Chairman Levin. Thank you very much, General.
    Why don't we try an 8-minute first round.
    We've read various reports as to how the Afghan forces are 
doing. Some reports indicate that they're doing very well, they 
are in the fight, they are brave, they are doing everything 
which we would hope that they would do. Other reports are less 
positive. A report in the New York Times yesterday was fairly 
negative, saying that it's mixed at best, that they're rarely 
in the lead, that they wait to be led, that they have not yet 
led one effort.
    General, can you give us your assessment as to how the 
Afghan forces are doing? I'm going to ask you about the 
planning of the operation in a moment and whether they're 
adequately equipped. But most important is their willingness to 
engage.
    General Paxton. Thank you, sir. All indications are that 
they have been every bit as present as U.S. and coalition 
forces and every bit as engaged as U.S. and coalition forces. 
Their standards of operation and their training, of course, are 
much different than ours and I'm sure that leads to the wealth 
of discussions about how effective they have been. But if you 
go by the metric, sir, of whether they have been with us 
lockstep from the beginning, the answer is yes in terms of not 
only the planning, but also the execution. I think the 
visibility of the Afghan national forces in the operation is 
what's going to lend credence and credibility to a partnered 
operation and start to build the confidence of the local 
population that there are not just coalition forces in there, 
sir.
    Chairman Levin. Are we predominant in terms of numbers and 
in terms of taking the lead?
    General Paxton. We are certainly not predominant in terms 
of numbers, sir. The number of Afghan kandaks and commandos is 
larger than the number of U.S. and coalition forces by perhaps 
1,500 to 2,000. So their physical presence on the ground is 
more than ours. Having not been there myself, sir, the 
indications are that it has been partnered every step of the 
way, sometimes with them in the lead, sometimes with us in the 
lead. Obviously, the face that we would like to put forward 
during the clear operations is the Afghans in the lead, because 
they have the cultural awareness and the ability to work with 
the population.
    Chairman Levin. That's good to hear. I think when we 
visited Afghanistan, as we have on a number of occasions, our 
leaders and our troops told us that they have a lot of 
confidence in the Afghan forces. There have been some 
exceptions to that, but for the most part we were reassured 
that they have the willpower, the bravery, and the willingness 
to engage. So your report is a good one and it is reassuring. 
It's important that that be the case, and that the American 
people hear that that's the case, and equally important that 
the Afghan people hear that that's the case.
    One of the issues which I have focused on is the question 
of the Afghan units, how many, what is their capability, the 
shortfalls that we have in their numbers, and what the goals 
are in terms of numbers. But on our last visit we were given 
some pretty startling news, that the number of trainers of 
Afghan forces was only at about 37 percent of what was 
necessary. That came as a very disturbing bit of news to us, 
because there's so little excuse for there not being adequate 
trainers.
    On February 19, our supreme allied commander, Admiral 
Stavridis, said that NATO remains 2,000 trainers short of the 
number needed and he was hopeful that NATO would meet those 
levels when defense ministers meet in Belgium this week for a 
force generation conference.
    I believe, Madam Secretary, you indicated that there were 
9,000 troops that had been forthcoming altogether from NATO 
allies and others. Where are we on the trainers issue?
    Ms. Flournoy. We are still trying to fill a shortfall of 
about 2,000 trainers. That is the target going into the force 
generation conference on February 23. We are working very 
actively with our allies. I was on the phone myself with two 
ministers of defense this morning and we are making calls, 
really trying to put as much emphasis on contributions of 
institutional trainers as well as Operational Mentor and 
Liaison Teams (OMLTs) and Police Operational Mentoring and 
Liaison Teams (POMLTs) as possible.
    Training and developing the ANSF is the long pole in the 
tent in Afghanistan, and we have to support that effort with a 
fully resourced force. So we are pulling out all the stops to 
work towards that. We are also reexamining our own 
contributions to make sure that we're doing everything we can 
to fill that gap.
    Chairman Levin. I think we've added 1,000 trainers already, 
have we not? The first of the 30,000 have arrived and were put 
right into the training issue.
    Ms. Flournoy. Yes.
    Chairman Levin. The training, as I use the term, really 
includes three pieces, right? One is the first kind of 8-week 
basic training. Then we have the mentors who are OMLTs, as you 
call them, who are with their units. This would be just a 
handful of our people with each of the Afghan units. Then, 
perhaps the most important part of the training is that 
partnering, that in-the-fight togetherness which you have 
described. We're 1,000 short of trainers that are not in 
combat; they are separated from combat. The idea that NATO has 
not carried out their commitments and they've only fulfilled 10 
percent of their commitment as of the time we were there is, 
frankly, startling, shocking, and unacceptable to me.
    I just hope that when you talk to our NATO allies and when 
we have these discussions that you can report two things, at 
least. One is we're grateful for those NATO allies who are 
there in the fight and who have given so much. We have a number 
of NATO allies who have done even more than their share. But 
many of our NATO allies have not stepped up as they have 
committed to, and it is that group of NATO allies that I'm 
particularly unhappy about.
    My next question has to do with the reintegration and 
reconciliation piece and as to whether or not we are involved 
already in a reintegration program in Central Helmand as part 
of Operation Moshtarak. Have we seen any effort there to 
provide some incentives to the low-level Taliban fighters 
there, including amnesty and a job, to try to get them to 
renounce violence and switch their support from the Taliban to 
the Afghan Government?
    Has that begun? Is it too early because we're right in the 
middle of a fight? Where are we on that?
    Ms. Flournoy. First of all, let me say thank you to this 
committee for demonstrating leadership in getting us the 
authorities to actually use some of our Commander's Emergency 
Response Program (CERP) funding for reintegration. We are 
putting the mechanisms in place to enable that. It's very much 
anticipated to be part of the operations in Helmand and other 
parts of Afghanistan as the momentum shifts and as 
reintegration becomes more attractive to some of the low-level 
fighters who are willing to put down their weapons.
    I think these are the early days. I think there have been 
some small indications of interest, but that part of the 
program is definitely expected. It has yet to take off, I would 
say.
    Chairman Levin. Just to wind that up, there's a loya jirga 
in March as I understand it. Do we expect that there will be a 
jointly approved reintegration plan between the Afghan 
Government and us and our allies by that March loya jirga?
    Ms. Flournoy. I would certainly hope so. That's something 
that we set for ourselves as a goal coming out of the London 
conference, certainly for reintegration. We hope to have a full 
plan in place very soon.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman, and thank the 
witnesses again for being here.
    Secretary Flournoy, General McChrystal's initial request 
for the troop increase was about 40,000. The number of 30,000, 
I believe, was arrived at by counting on significant makeup of 
those shortfalls by additional contributions from our allies. 
Is that correct?
    Ms. Flournoy. Yes, sir.
    Senator McCain. Now, over the weekend the Dutch Government 
collapsed and they announced that they will be withdrawing in 
August. That's 2,000 troops. The Canadians will be withdrawing. 
What are the prospects of getting sufficient number of troops 
to make up that difference between the 40,000 that General 
McChrystal recommended and the 30,000 that are actually being 
deployed?
    Ms. Flournoy. I think that we are seeing NATO allies step 
up. The initial estimate was 7,000. It's now up to 9,000.
    Senator McCain. Are you taking into consideration the Dutch 
decision to pull out?
    Ms. Flournoy. Again, that is something that we will have to 
see once they form a new government.
    Senator McCain. They've announced that they are 
withdrawing, Madam Secretary. That's a matter of record.
    Ms. Flournoy. That is the government's plan that just fell, 
but there will be a new government.
    Senator McCain. Do you have any prospect that they will 
remain in Afghanistan?
    Ms. Flournoy. I think there are prospects that there will 
be some significant form of some contribution from the Dutch.
    Senator McCain. Anywhere near the 2,000 troops they have 
there now? I think we all know what's reported in the media, 
Madam Secretary, and I think we ought to plan for it.
    Now, the Canadians are leaving as well, is that correct?
    Ms. Flournoy. Not until 2011.
    General Paxton. Yes, sir. What we have done is endeavor for 
those nations that we have a reasonable expectation are leaving 
to see if they would pony up folks for trainers and then we 
would take the United States or the other coalition and allied 
nations that are still there and we would do the differential 
by moving some of the existing forces into combat forces, but 
we would ask them to maintain on the training side, sir. Some 
have indicated that they would do that.
    Senator McCain. I say with great respect you are getting 
different information than I am, including conversations that I 
had in Munich with our NATO allies. I believe that Senator 
Lieberman got the same impression.
    Look, we might as well face up to the fact that the Dutch 
are leaving. That's why their government collapsed. I'm 
grateful for their participation and I have great sympathy for 
the losses they sustained. But we have to deal with realities 
of what the actual allied contribution is going to be and, very 
frankly, Madam Secretary, to somehow believe they're going to 
make up that difference is very different from the realities of 
their domestic political situation.
    Steven Coll wrote an article on February 15 in The New 
Yorker where he says that the key area in Afghanistan is 
Kandahar. Obviously, it's a historical seat of power, it's the 
birthplace of the Taliban. I think obviously you know all those 
reasons. He questions whether Kandahar shouldn't have been the 
focus of our offensive as opposed to the present one. General, 
maybe you can respond to that.
    General Paxton. Yes, sir. When General McChrystal started 
his assessment last July, he had broken the country down into 
five potential areas for operations, sir. Some of this we can 
get to in the subsequent discussions in the closed session 
afterwards. He divided those five areas into three groups: one 
where there was a focus of operations that we needed to 
initially go after a main effort; then there would be a 
supporting effort; and then the third group would be the 
economy-of-force effort.
    Kandahar area was in that first large group of a main 
effort and a place we would go. But the General's assessment, 
and based on briefs through the Joint Chiefs and Chairman 
Levin, was that the Central Helmand River Valley was where the 
insurgency had the most safe havens, the most succor, the area 
that we really needed to go after first if we were to open up 
the freedom of movement throughout RC-South. So I think you'll 
see, sir, that Kandahar will closely follow, but it just was 
not the preference for the initial attack, sir.
    Senator McCain. I keep hearing reports, General, that the 
Rules of Engagement are overly restrictive. Can you clear that 
up a little bit for us?
    General Paxton. Yes, sir. Thank you.
    Senator McCain. In other words, we're hearing reports that 
even if they see an armed enemy, they can't fire unless they 
are fired upon. I don't know if that's true or not, but maybe 
you could clear that up.
    General Paxton. Yes, sir. Thanks. There has been much 
discussion on this in open sources here. There have been no 
changes to the Rules of Engagement, starting at the baseline 
for self-defense and the rules for actually engaging an armed 
combatant. What General McChrystal has done through a series of 
at least three major tactical directives is give all his 
subordinate commanders litmus tests to look at to make sure 
that in the execution of the mission, they are not taking undue 
risk by putting civilian casualties in the equation or 
aggravating the mind set of the population by killing innocents 
that don't need to be engaged at that time.
    Senator McCain. So it's a careful balance between trying to 
reduce or eliminate civilian casualties and at the same time 
allowing the military to defend themselves.
    General Paxton. That's correct.
    Senator McCain. Do you think they have the right balance?
    General Paxton. I think they do, sir. I think, given the 
education of the force and the experience through many years 
now in both Afghanistan and Iraq, that our subordinate 
commanders can exercise that judgment call and use that litmus 
test properly, given the situation that they face, sir.
    Senator McCain. Secretary Flournoy, there are press reports 
that the Taliban have been able to build up their strength by 
about 35 percent over the past 2 years in the Afghan-Pakistan 
border, up by 7,000 more than in 2008 to about 27,000. Are 
those reports accurate and what do you attribute it to if they 
are?
    Ms. Flournoy. Sir, I'd rather answer that in closed session 
if we could.
    Senator McCain. Okay. But it is an area of concern.
    General, are we capturing significant numbers of Taliban 
fighters?
    General Paxton. Senator, we have captured some. I wouldn't 
classify it right now as significant. There have been some 
killed and some captured, and some have fled the area, if you 
will, sir. But we're waiting to assess how many and of what 
intelligence value they are, sir.
    Senator McCain. But the NATO forces are operating under the 
so-called 96-hour rule. They can only be detained for 96 hours 
and then they have to be released. Is that a problem?
    General Paxton. Sir, I'd have to get out to talk to the 
commanders on the ground and go back through General McChrystal 
to see if in the last 10 days that has posed a problem over 
there. None that I have heard of, sir.
    Senator McCain. Has this operation gone pretty much as you 
had thought that it would? Have there been any surprises?
    General Paxton. No, sir. I would characterize the operation 
as according to plan.
    Senator McCain. As you expected?
    General Paxton. Yes, sir. The expectation that there would 
be a large amount of IEDs, that there would be bands to try and 
restrict our movement, that there would be focused complex 
attacks, all of that was exactly as we anticipated, sir. The 
fact that local nationals and the civilian populace have 
started to identify to us where those IEDs are, the fact that 
some Taliban have departed the area, and the fact that we have 
already seen some markets and bazaars start to open as people 
entrust their livelihood and their security and safety to the 
Afghan forces and the coalition, that's heartening to us, but 
we just don't want to put too much stock in it right away. But 
we have seen some of that, sir.
    Senator McCain. Is there a significant presence of foreign 
fighters?
    General Paxton. I can't answer that right off the top of my 
head, sir. I'll go back and get that answer to find out, of 
those that we have killed or captured, what the percentage 
would be of foreign fighters as opposed to Taliban or Pashtu or 
Dari, sir.
    Senator McCain. Thank you. I thank the witnesses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Madam Secretary, General Paxton, thanks very much for being 
here. Secretary Flournoy, I wanted to ask if you could explain 
how our operations in Marjah fit into the broader offensive to 
retake southern Afghanistan from the Taliban that I know will 
unfold as this year goes on.
    I begin by asking if I'm correct in thinking that our 
operations in Marjah are just a first step in a broader 
campaign to break the Taliban's momentum, and that the next 
step after Marjah is likely to be to focus on Kandahar?
    Ms. Flournoy. General McChrystal has talked about this 
being a war of perceptions, and I think Marjah is an opening 
salvo. It is a first step. It is designed to begin to create 
that shift in momentum. Once we have that in Helmand, the focus 
will very much shift to Kandahar Province.
    Just having come from the Arghandab, there are pockets 
where that shift is already taking place in Kandahar Province. 
So I think there is some positive momentum in areas there 
already.
    Senator Lieberman. My understanding is at this point the 
lion's share of the surge forces that have arrived in 
Afghanistan are in Helmand, where the population is smaller 
than in Kandahar, and Kandahar, as you well know, has a 
historic significance to the Taliban as a center of their 
operations.
    So I want to ask you if you feel that we have enough 
forces, basically, to handle both? Can we fulfill General 
McChrystal's role or purpose of not just taking a town and then 
leaving it, in other words keeping some general presence in 
Marjah and Helmand, and also have enough forces to move into 
the larger area of Kandahar? General, do you want to start?
    General Paxton. Thank you, Senator. I think your assessment 
is correct, sir. We do believe, General McChrystal and then the 
assessment thereafter, that Marjah, Nad'Ali, and the Helmand 
River Valley were the places to start, again because of 
sanctuary and safe haven and the fact that we needed to crack 
the insurgent stronghold there, to open the freedom of 
movement, with a reasonable expectation that Kandahar was still 
going to be one of those cities that was part of the main 
effort, that we would have to go there.
    To your second point, sir, you're absolutely right. There 
is a commitment on both the Afghan National Security and the 
coalition forces that we have to already lean into the ``hold'' 
and ``build'' phase while we're doing the ``clear'' phase. So, 
consequently, we can't outrun either our capacity or the 
limited numeric capability of the Afghan National Security 
Forces.
    So we are partnered with them with the expectation that 
they will stay in the Marjah-Nad'Ali area. Then some operations 
will have an overlap, but I wouldn't say they will be 
simultaneously. Some of them are going to be more sequential, 
sir.
    Senator Lieberman. So do you think we have enough troops 
there to both ``hold'' and ``build'' in Helmand and move on to 
take Kandahar City?
    General Paxton. Yes, sir, that is the plan. I'm sure again, 
because General McChrystal's assessment was that it would be 
conditions-based, I think we will be very careful and 
deliberate not to overstretch ourselves by moving on to another 
area before we've completely cleared or we have enough resident 
capacity to hold that area before we step off and go somewhere 
else, sir.
    Senator Lieberman. Secretary Flournoy, in this regard I 
remember when President Obama announced his decision to surge 
our forces, which I appreciated greatly. There was indication 
that beyond the 30,000 American troops that were committed and 
the hope for 10,000 more, which we hope is realized, that 
Secretary Gates would be given the latitude to increase the 
American presence beyond the 30,000 troops.
    Just remind me if I have that correct, and if so is there 
any contemplation at this point, because of the resource-
intensive nature of these drives, particularly if, as seems to 
be, and we're all thrilled to see it, we seem to be breaking 
the Taliban momentum in Marjah and perhaps have an opportunity 
to move on to Kandahar? Does Secretary Gates have that 
authority, and if so, is he prepared to use it to seize the 
moment as we regain the momentum against the Taliban in 
Afghanistan to make sure we have enough troops on the ground?
    Ms. Flournoy. When the President approved the additional 
forces for Afghanistan, he did give the Secretary of Defense 
the flexibility of about 10 percent to request additional 
troops should they be required. I think in the Secretary's 
mind, given his experience of the last couple of years, he 
anticipates that will most likely come in the form of critical 
enablers that have to do with force protection, lifesaving, and 
mobility. I think that he's very much interested in seeing the 
force flow continue through the summer and then have that bit 
of flexibility to adjust, should urgent needs emerge at that 
time.
    Senator Lieberman. Good. That's reassuring to hear.
    Let me go to the capture of Mullah Abdul Ghani Baradar, top 
Taliban military commander in the Quetta shura Taliban, who was 
seized in the Pakistani city of Karachi. I wonder if either or 
both of you could assess for us what you think the operational 
impact of the capture of Mullah Baradar will be on the ability 
of the Taliban to wage its insurgency in Afghanistan?
    Ms. Flournoy. Senator, I would be more comfortable 
answering this in closed session if that's all right with you.
    Senator Lieberman. Okay, that's okay with me. Perhaps with 
the next question I was going to ask, you'll feel the same way. 
It's rare that we hear anything positive said in this country 
about the ISI, the Pakistani Intelligence Service, but it is 
true, I gather, that they participated, and were perhaps in the 
lead, in the capture of Mullah Baradar. Is that correct?
    Ms. Flournoy. Again, I would refer any details to the 
closed session. But what I would say is that the ISI has, in 
many cases of counterterrorism operations, been a very 
important partner for our intelligence agencies and actually 
contributed substantially to the capture of a number of high-
level people from terrorist organizations. But I will reserve 
comment on any specifics.
    Senator Lieberman. I appreciate that, and I appreciate your 
answer. I think we've learned as we've gone to Pakistan a lot 
and talked to our people there, that this is a mixed picture 
with the ISI, and that's saying something positive. In other 
words, it's not all negative.
    Ms. Flournoy. It's not all negative.
    Senator Lieberman. Yes, the negative obviously is our 
concern that there continue to be contacts between some 
elements of the ISI and Lashkar-e-Taiba and other terrorist 
groups. But on the other hand, it is reassuring to note that 
they have contributed significantly to counterterrorist actions 
by our own intelligence or military forces.
    My time is up. Thank you very much. Thanks to General 
McChrystal and the troops. My own sense from here, and it's 
validated by what you've said, is that it's early, but we've 
begun a turnaround, and that's very significant.
    Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Thank you, Secretary and General, for being here to answer 
our questions today. General Paxton, the news reports indicate 
that this effort could take a month or more. Do you have a time 
frame when you think that our troops will have achieved the 
mission in Marjah?
    General Paxton. I do not, Senator. Again, based on my 
earlier comments, it will largely be conditions-based and we'll 
have to see how these initial operations, particularly in 
Marjah and Nad'Ali and Garmser, turn out. But we're going to 
continue to press forward in partnership with the Afghans and 
with a high degree of energy.
    Again, the critical phase here of the four is actually the 
``hold'' phase. So the clearing is what gets all the attention 
because of the casualties, because of the destruction, because 
of the kinetics involved. But it's going to be the transition 
from the ``clear'' to the ``hold'' that will be the most 
important, and that will be the condition that will allow us to 
know when it's time, as Senator Lieberman said, to perhaps look 
at another objective.
    Senator LeMieux. I think you said earlier that we have 
sufficient troops for the ``hold'' phase?
    General Paxton. We believe at this time that we do, both 
U.S., coalition, and Afghan.
    Senator LeMieux. One concern that has been expressed in the 
past is that when we fight the Taliban, they sometimes just 
throw down their weapons and recede back into the local 
civilization and then come out and fight us later. Afghanistan 
has traditionally had a fighting season. I think we're earlier 
than that. This is still before the fighting season. Is there 
any concern that these folks are melting back into the 
civilization and are going to come back later?
    General Paxton. There is always, sir, a concern that 
they'll come back. For right now, though, the ability to 
reclaim key terrain, reclaim areas of population, and have them 
throw down their arms and leave is perhaps a good thing. If we 
can demonstrate a commitment to stay, if the population can 
demonstrate a resilience and an agreement to work with the 
ANSF, then those who have thrown down their arms and left may 
be faced with two opportunities: of either retreating further 
or starting to think about reconciliation, which is where we 
want to go.
    Senator LeMieux. Based on the ratio of the number of folks 
that we're capturing or killing, is there anything that would 
lead you to think that it's out of the normal based upon our 
experience? In other words, are we not capturing enough or 
killing enough? Could there be more melting back into 
civilization or lack of civilization?
    General Paxton. I think, based on 9 or 10 days, it's 
probably a little bit premature to make any of those judgments, 
although there are some things we can talk about in closed 
session that would give us an indication that this may be a 
good opportunity that presents itself.
    Senator LeMieux. Senator McCain spoke about the Rules of 
Engagement. I have in front of me an L.A. Times article from 
February 19 that talks about the Marines being warned of rough 
treatment or even harsh language aimed at a detainee, that when 
making an arrest they are instructed to ask the subject if they 
will go voluntarily with them.
    Having met with General McChrystal, I understand the need 
to handle this in the right way. But do you think that these 
Rules of Engagement are appropriate? Are we giving our men and 
women the appropriate tools to do the job?
    General Paxton. Yes, sir, not only the Rules of Engagement 
kinetically about direct fire and indirect fire, but certainly 
the rules in terms of handling detainees. There's a clear line 
and distinction between what's appropriate for sensitive site 
exploitation and handling detainees, and what is not. Again, 
it's based on the concept that you want to gain a potential 
source of information or a potential ally, as opposed to 
alienate some of the population that you may not have 
sufficient intelligence or indication right now is truly an 
enemy. So discretion is the better part here.
    Senator LeMieux. Secretary Flournoy, in the discussions 
about forces who are aiding us in the coalition, I wonder if 
there are other countries outside of NATO that would be willing 
to help. I was in Columbia last week and saw the special 
forces, I think there were about 38 of them, who are deploying 
to go over to fight with us in Afghanistan. Are you looking at 
countries outside of NATO to lend support to our warfighting 
effort?
    Ms. Flournoy. Absolutely. We have allies like Australia, 
and others from Asia. The Koreans are putting in a Provincial 
Reconstruction Team. Countries from South America, as well as 
some from the Middle East, are also offering their training 
facilities as potential training sites over time for the ANSF. 
So I think we have many non-NATO partners who are also 
contributing importantly.
    Senator LeMieux. Can that help us make up the difference if 
we lose some of these NATO folks?
    Ms. Flournoy. We are certainly moving in that direction, 
yes.
    Senator LeMieux. The last thing I want to touch on, and 
Chairman Levin briefly referenced it, is this notion of 
``government in a box.'' Part of that strategy and part of this 
whole counterinsurgency strategy is the communications efforts 
that we do to win the war of the hearts and minds of the people 
who have been under Taliban rule and may wonder whether or not 
we're staying and whether or not the information they're 
receiving from us is accurate or the information from Taliban 
is accurate.
    When I was in Afghanistan at the end of October, there was 
some concern that we weren't doing as good of a job as we could 
be in the information department. We had met with a Colonel 
Kraft who was working in Special Forces, who had done a good 
job of radio stations and other types of communication to make 
sure that the people know what's true and not true.
    Are you implementing those efforts in this offensive?
    General Paxton. Yes, sir. There's a very conscious 
messaging piece to it, and some folks would say we're almost 
telegraphing our punch. But it was to try and force people to 
make a conscious decision to either cooperate or to leave the 
area.
    Part of it is the messaging, but the other part is the 
actual delivery of goods and services, so that the populace 
doesn't feel that they owe allegiance to a shadow government 
who provides something that the local government cannot. With 
the help of this committee and the help of the forces over 
there, we're able to provide the rudimentary assistance for the 
start to clinics, to schools, to local governance, which is 
what the people seek.
    Ms. Flournoy. If I could just add, part of the civilian 
surge going into Afghanistan is building up the civilian side 
of our ability not only to do our own strategic communications, 
but also to help build Afghan capacity, Afghan radio stations, 
Afghan media, Afghan press, and so forth. We have some new 
leadership going into that effort, some new resources, and I 
think that will begin paying off over the coming year as well.
    Senator LeMieux. I had a chance to go to CENTCOM not too 
long ago in my home State. I think there was some concern that 
in the current budget request there's not enough funding for 
these efforts going forward. I don't know if you have an 
opportunity to review that or have an opinion about it. If not 
today, it's something we could talk about in the future.
    Ms. Flournoy. We are actually writing a very detailed 
report to Congress, as requested, on the whole of information 
operations, including in Afghanistan, and we'd be happy to 
discuss details for ways we could augment that effort.
    Senator LeMieux. Thank you.
    General, these folks that we see retreating when we're 
fighting them, are they heading south into Pakistan or are they 
heading to Kandahar? Is there one central focus of their 
migration or are they fleeing everywhere?
    General Paxton. Because there are many areas of combat, 
they're moving in a lot of different areas. I would tell you 
that some of the trend seems that they may be moving north and 
east. But we can discuss more of that in the closed session, 
sir.
    Senator LeMieux. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, Madam Secretary and General, for your service 
and for being here today. Beyond the clearing of, let's say, 
Marjah, is there any expectation or have we anticipated how 
long the ``hold'' and ``build'' phases might last in terms of 
Marjah?
    General Paxton. I don't believe we have, sir, simply 
because again the ``hold'' phase is the critical one and until 
we can see the efficacy of the Afghan security and the Afghan 
local government, I'm not sure we can be able to safely predict 
that on a timeline, sir.
    Ms. Flournoy. If I could, Senator.
    Senator Ben Nelson. Sure.
    Ms. Flournoy. One of the unique qualities of this was 
bringing in Afghan ministries from the ground up, if you will, 
in the planning of this operation. What we're doing is 
dovetailing this with their own district development program. 
The Afghan ministries that will be coming in to Marjah to set 
up district offices are actually going to stay indefinitely.
    Senator Ben Nelson. Is that the ``government in a box''?
    Ms. Flournoy. That is the reference. It's sort of the 
beginning of the Government of Afghanistan's enduring presence 
in these areas, that we hope will endure indefinitely.
    Senator Ben Nelson. Part of the plan then apparently is to 
use as much or as many of the ANSF for the holding, as much as 
the ISAF troops; is that accurate?
    Ms. Flournoy. Yes. Initially it will be the Afghan National 
Police and the ANCOP, and then it will become the local police 
over time.
    Senator Ben Nelson. Is there anything in particular that 
makes us believe that the Afghans are ready for this role of 
their own self-governance within some reasonable period of 
time?
    Ms. Flournoy. Certainly at the subnational level, I think 
there's a real eagerness on the part of many populations to see 
development, and to see responsive governance. What we're 
seeing now is many of the ministries in Kabul stepping up to 
build their capacity to be present at the provincial level and 
now the district level. They need our help with that. They need 
resources for that. But there is certainly an interest and a 
willingness, and I think they see this as an opportunity to 
move down the road towards achieving that.
    Senator Ben Nelson. Is there a sense of decentralization 
going on here in this process? I don't mean that in a 
pejorative sense as much as I do recognizing that the local 
control and local interests have to prevail for this to be 
successful.
    Ms. Flournoy. I think there's a sense that most Afghans 
experience governance at the local and district levels, and 
that's where you have to really create momentum. It's where the 
Afghan Government interfaces with more traditional social 
structures, tribes and clan elders and so forth. So I do think 
that's where the emphasis is, or much of the emphasis is right 
now.
    General Paxton. Sir, if I could, I believe there's a sweet 
spot in there, because obviously you want the local governance 
to flourish, you want the trust and confidence in the local 
governance. That's what General McChrystal and his staff have 
tried to do by bringing Governor Mangal in for some local 
shuras and jirgas.
    Part of the reason to go back and brief the entire 
operation to President Karzai and to get the ministries to buy 
in was to force that connective tissue between the local 
government and the national government, so that the local 
governance would not be on their own and die on the vine. So 
we're trying to force not only the security issue with the 
ANSF, but the governance between local and national as well.
    Senator Ben Nelson. Are we running into similar problems as 
we experienced in Iraq, sectarian differences creating a 
challenge to have local governance?
    Ms. Flournoy. I guess I would say there are tribal dynamics 
at work.
    Senator Ben Nelson. But those are different than religious 
sectarian.
    Ms. Flournoy. Yes. I think that part of the challenge in 
Afghanistan is to seek governance processes that will enable 
balance at the local level with competing groups that have 
sometimes competing interests or histories of grievance. So 
that's where having Afghan partners really helps us to work 
through those issues at the local level and make sure that 
there's a process for adjudicating those. Part of what has 
given the Taliban traction is the absence of any kind of 
adjudication mechanism, any kind of justice. I think the more 
we restore that in terms of local governance, the less room for 
the Taliban.
    Senator Ben Nelson. We might learn a great deal about the 
Helmand Province area. An experience or an education that we 
receive there, will that help us in the other provinces? 
Because this isn't going to be limited to that central part of 
Afghanistan.
    Ms. Flournoy. I think many of the players will change, but 
I think a lot of the lessons learned will translate.
    General Paxton. I was just going to say, sir, we're always 
looking to capture success stories, best of breed, and to see 
what is transferable. We have to be very cautious. Just as we 
didn't want to make sure everything was literally transferable 
from Iraq to Afghanistan, in the same way it may not be 
transferable between Helmand and Kunar or Kunduz or any of the 
other provinces.
    We are looking for things that are transferable and, as 
Secretary Flournoy indicated, some of the indications in 
Afghanistan are that it's more about intimidation, tribal 
dynamics, corruption, and neglect than it is about sectarian 
issues, as it may have been in Iraq. But we're watching that, 
sir.
    Senator Ben Nelson. We're hopeful that the ``government in 
a box'' concept will be acceptable to those local tribal 
leaders. Will there be a general resistance to the central 
nature of that ``government in a box''?
    Ms. Flournoy. One of the things we're doing is using 
development to enhance the reach and legitimacy of the local 
government. I can draw on the example of what I saw in 
Arghandab. What you have is the development piece creating 
momentum that brings people to the district government to be 
able to participate. It is really enabling the local government 
in a way that it hasn't been enabled before.
    Senator Ben Nelson. One final question as it relates to 
counterinsurgency. Is the training that's under way for our 
troops in Afghanistan, as well as for the Afghan forces, 
sufficient for counterinsurgency? Are we closing the knowledge 
gap in Afghanistan, as we apparently were doing in Iraq, on 
counterinsurgency?
    General Paxton. Yes, sir. I think I can assure you that the 
training is adequate to the task. That doesn't mean it's 
perfect because we're always looking to improve the tactics, 
techniques, and procedures we use based on best of breed, 
lessons learned, changes to the equipment, and defining things 
that work better in certain conditions or environments. We are 
capturing that, and all indications from our National Training 
Center, our Joint Readiness Training Center, and what we're 
doing here in the States, as well as what we do in Europe, are 
that it's adequate to the task, sir.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    As one of the Senators from North Carolina, I want to 
definitely give kudos to our marines from Camp Lejeune that are 
leading these efforts in Afghanistan. The 2nd Marine 
Expeditionary Brigade (MEB) of approximately 10,900 marines, 
under the command of Brigadier General Nicholson, is doing an 
excellent job in Helmand Province and the current Marjah 
offensive. There are four Marine task forces under the 2nd 
MEB's operational structure and I'm proud to say that the 1st 
Battalion of the 6th Marine Regiment was the first unit 
deployed to Afghanistan as part of President Obama's decision 
to deploy the additional 30,000 troops. I'm also proud of the 
Marine Special Operations Command of approximately 300 marines 
that's heading the Special Operations Task Force in 
Afghanistan.
    One of the concerns that I continue to have is the maiming 
and killing of a number of our soldiers due to the IEDs. I know 
that in Afghanistan they are difficult to detect because of the 
small amount of metallic content. But I want to be sure that 
our servicemembers have the best defense available to protect 
them against what I believe is the greatest source of combat 
casualties.
    Several weeks ago, when I met with Lieutenant General Oates 
and we were talking about this, I was concerned when he stated 
that we were only able to detect and mitigate about 50 percent 
of the IEDs.
    Lieutenant General Paxton, I know that Secretary Gates 
mentioned that you are chairing a counter-IED task force with 
Under Secretary Carter. What are some of your observations 
regarding the types of intelligence, surveillance, 
reconnaissance, and human intelligence assets that we need to 
increase the IED detection and mitigation above this current 50 
percent rate? How can we better assist at the brigade and 
battalion levels?
    General Paxton. Thank you, Senator. I am indeed one of the 
co-chairs on the Secretary's counter-IED task force. We are 
looking at this through a technology aspect, a training aspect, 
and then an equipping aspect. There are at least three 
component pieces to the way you defeat.
    As I'm sure General Oates passed on to you, ma'am, there 
are three things that we look at: actually defeating the 
device, developing the network, and then building the 
intelligence that goes behind that. We are looking at best of 
breed from technology across the United States, whether it's 
soil conditions and infrared (IR) and electro-optical (EO) and 
different types of photographs that we can take, and taking a 
look at how we can work with local nationals to tell us where 
they have been.
    I think the operations in Marjah so far will tell us that 
about 65 or 70 percent of the IEDs that we do detect are being 
passed on to us by word of mouth from local nationals. That's a 
good sign because they watch and they know where they are, and 
they will tell us things that we cannot necessarily pick up 
from technology. That goes to the heart of the very reason that 
population-centric counterinsurgency and the deliberate piece 
of the shaping and clear is so important here. It cuts down on 
the number of IEDs present, or at least, improves the 
opportunity to find IEDs.
    We'll have the opportunity here over the next 3 or 4 
months, ma'am, to come back with the IED task force and to 
further elaborate both technologically and in training about 
where we're going, and the good things that are resident in our 
capabilities that we want to capitalize on, either get more of 
or get into the fight or pass off to the Afghan National 
Security. That's one of our components, is to see what kind of 
things the U.S. forces have that we may be able to share with 
coalition partners and allies, ma'am.
    Senator Hagan. So the human intelligence asset is a great 
contributor in this endeavor right now?
    General Paxton. Yes, Senator. The human aspect is probably 
the most important right now. You always think that you can 
rely on technology and there will be a better type of 
photograph or a better type of sensor. But eyes on target or 
somebody who watched it get emplaced is still the most positive 
and most reliable indicator.
    Senator Hagan. You mentioned EO. I'm not familiar with 
that.
    General Paxton. Electro-optical or infrared, all the 
different types of photographs and scanning capability we may 
have, either from an elevated line of sight platform or 
something in the air.
    Senator Hagan. Also, I know that in Afghanistan the 
ammonium nitrate is part of the component parts. I was curious, 
has the Pakistan military taken an active role in countering 
the smuggling of this ammonium nitrate into Afghanistan, and if 
not, how can we engage them to address this important factor?
    Ms. Flournoy. We did succeed in working with the Afghan 
Government to ban ammonium nitrate on their side of the border, 
and we have raised this issue with the Pakistan Government in 
hopes that they will also assist. This has just come about, so 
we have yet to hear back from them about their position on this 
issue.
    General Paxton. If I may, Senator, obviously there are 
legitimate uses for it for agriculture and legitimate uses for 
it for cratering and quarrying and road construction and things 
that they need for infrastructure and development. So we are 
now in the process of trying to work with the two governments, 
Afghanistan and Pakistan, as well as with our intelligence 
detection sources, to figure out where it's produced, how much 
is necessary, and then how much of it is above and beyond that. 
A lot of that may go to the heart of import-export controls and 
how those local governments track how much they bring in, how 
much they make, and how much they export. There's where I know 
Secretary Flournoy, Secretary Carter, and I will continue to 
work on that, ma'am.
    Senator Hagan. Thank you.
    Reportedly, elements of the Afghan Taliban high command are 
beginning to relocate from the city of Quetta in Pakistan's 
Baluchistan Province to the city of Karachi, due in large part 
to drone attacks. Obviously, this makes it more difficult to 
locate and apprehend the senior Taliban leadership because 
Karachi is a major metropolitan city with over 3 million 
Pashtuns.
    How will the Afghan Taliban high command's relocation to 
Karachi impact the U.S.-Pakistani intelligence efforts to 
apprehend them?
    Ms. Flournoy. I'm not sure I'm the right person to answer 
that, because it may be more for some of our intelligence 
agency brethren. But we could certainly talk about it more in a 
closed session.
    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Let's just try a fairly brief second round. We'll start 
with 5 minutes.
    You indicated, General, there were five kandaks, five 
battalions, of the Afghans. Do you know offhand and could you 
tell us in open session if you do, whether or not those units 
are at the highest level of capability, CM-1, or whether 
they're CM-2, or whether these are new troops that are coming 
in straight from basic training?
    General Paxton. Sir, I cannot right now. I think I can get 
that answer for you and perhaps in closed session I could pass 
that, sir.
    Chairman Levin. All right, thank you.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. There is an integrated decisionmaking 
process between us and the Afghans, I understand, within that 
operational command. Does the Afghan commander approve all 
aspects of the operations? Is that a joint decision?
    General Paxton. Sir, I know there is an Afghan corps who 
developed the concept of operations in parallel with the MEB 
commander, with the force commander there, and then briefed it 
and did what we call the rehearsal of combat drill with RC-
South. So I know they have been intimately involved in the 
collaborative planning.
    I do not know, in terms of the command and control 
relationships, who has the final say and whether it is single 
or collaborative. My estimate is, based on military 
experiences, that you can only have one commander at one time. 
So they will partner in terms of who controls which piece of 
the battle space and who is making a decision on a ``clear'' 
piece and who on a ``hold'' or who on a ``maneuver'' and who on 
a ``fire.'' So they're probably doing that collaboratively, 
sir.
    Chairman Levin. Would you let us know the answer to that 
question for the record?
    General Paxton. Yes, sir.
    [The information referred to follows:]

    We confirmed that the answer given in the open session was 
accurate. International Security Assistance Force commanders sought 
recommendations and insights from their Afghan National Security Force 
counterparts as full partners throughout this combined operation. The 
ultimate C2 for the operation fell to Commander IJC and the RC(S) 
commander.

    Chairman Levin. There was a very strong surge in recruiting 
in the Afghan Army that came right after the President made it 
clear in his West Point speech that he was serious in terms of 
not being an open-ended commitment, not being an occupation 
army, by the way in which he framed the beginning of the 
drawdown. Our general there who's in charge of training of the 
Afghans was very specific about the surge that came at the end 
of 2009 in the Afghan recruits. Do we know whether or not that 
recruitment has continued to be strong through January?
    General Paxton. Yes, sir, it has. The recruitment, 
retention, and reenlistment have continued, sir. Although we 
are still behind our fiscal year 2010 goal, we are still 
continuing to see increases in recruiting. I think we're up 
between 57 and 60 percent on retention, which is below the 65 
percent goal, but it's going well, sir.
    Chairman Levin. That's great news. Thank you.
    Secretary Flournoy, can you give us an idea as to the role 
of President Karzai and his cabinet in the run-up to this 
operation? How involved were they, including the minister of 
defense, Minister Atmar, other ministers, as well as the 
president?
    How much consultation was there with the villages and 
village elders in Helmand Province prior to this operation?
    Ms. Flournoy. Consultation with both was extensive. I think 
on the Afghan Government side in Kabul, in addition to the 
national security ministries, defense, interior, National 
Directorate for Security, you also had the ministries that 
would really have lead responsibility in the ``hold'' and 
``build'' phase also brought into the planning from the start. 
So you have a very high level of ownership and involvement at 
the cabinet level.
    General McChrystal briefed President Karzai several times. 
The final time it was really engaging him to approve the 
operation and the start time.
    Chairman Levin. Was that approval forthcoming?
    Ms. Flournoy. Yes.
    Chairman Levin. Was President Karzai accurately quoted when 
he said that that was the first time that he had been asked to 
make that kind of decision?
    Ms. Flournoy. I think it was the first time he had ever 
been asked, yes.
    At the local level, there were multiple shuras with the 
local community, really talking to them about the situation on 
the ground, whether they wanted their area to be cleared, 
whether they wanted to be rid of the Taliban, whether they 
wanted Afghan and coalition forces to come in, and working 
through what it would look like and whether they are prepared 
for the risk that would be involved.
    So I think that also set the conditions for the local 
population to have real buy-in into the operation. This wasn't 
just something happening to them. This is something that they 
actually asked for.
    Chairman Levin. Can you characterize the response of the 
village elders at those shuras, as to whether they generally 
were supportive, whether they were neutral, or whether they 
were critical?
    Ms. Flournoy. I think initially there was probably some 
skepticism, but I think in conversation the vast majority of 
them became very supportive. But they were also very clear that 
they wanted not just a clearing, they wanted the ``hold'' and 
the ``build,'' and they wanted legitimate and responsive 
governance at the end of the day when it was all over.
    Chairman Levin. When you say ``shape, clear, hold, build,'' 
I've had some conversations where I've suggested we add the 
word ``transfer.''
    Ms. Flournoy. ``Transfer'' or ``transition,'' I think that 
is very much part of the plan.
    Chairman Levin. I've forgotten who it was that said that 
they were going to add that fifth stage of transition or 
transfer.
    Ms. Flournoy. It may take our doctrine a while to catch up, 
but that is the idea.
    Chairman Levin. I think it's really important to everybody. 
It's important to us, it's important to our people, it's 
important to the Afghans, that that be seen as a goal of this 
mission, not just to ``shape, clear, hold, build,'' but to 
``transition.'' So I hope, General, you will add that to your 
sequence there.
    General Paxton. Yes, sir.
    Chairman Levin. Thank you.
    Senator Lieberman.
    Senator Lieberman. Mr. Chairman, I think it's best I save 
my questions for the closed session, though I'm trying to play 
Scrabble in my mind with what word I can come up with with 
``shape, clear, hold, build, and transition.'' I don't have one 
yet, but there's an acronym there somewhere. [Laughter.]
    Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    My final question here for the open session is the question 
of metrics or milestones. Senator Nelson, among others, has 
been one of the members of the committee who's put a lot of 
focus on this. I misspoke the other day when I said we were not 
given milestones, because apparently we had been given 
milestones, but they were classified milestones.
    If we haven't already made the request for unclassified 
milestones, we would make that request now. That would include 
the metrics. I don't know if metrics and milestones are 
synonymous. But if you could give us some metrics, not today, 
as to how we would judge the Afghan people's trust. It may be 
impossible. It's not just public opinion polls. Is there any 
other way that you can gauge that? If there is it would be 
welcome along with those unclassified milestones.
    Finally, for both of you, we've worked on a chart which I 
think both of you have, which is a matter of milestones. It's a 
chart which shows the end strength currently of the Afghan 
Army, the objective in October 2010 and July 2011, the 
capability status of the Afghan battalions starting with the 
baseline of December 2009 for this progress chart. Battalions 
are partnered, this is something which is extremely important 
in RC-South and RC-East. How many of those partnered battalions 
are fully integrated? Lieutenant General Rodriguez gave us some 
numbers or is giving us numbers in terms of full integration, 
not just the partnering but ``fully integrated'' I believe were 
his words. The trainers, which we call ``initial trainers,'' 
which is the first 8 weeks of training, so he would give us 
what is the requirement, how many are assigned, what the 
shortfall is.
    This is a work in progress, as you would say. We're adding 
recruiters and retention. What was the number of recruiters we 
already got with the initial trainers column, and what is the 
retention?
    I'm pretty sure in your offices you will have that chart, 
but we will give you an up-to-date one.
    Ms. Flournoy. I have not yet seen it, sir, but I will be 
happy to help you fill it out.
    General Paxton. I just saw the most recent version just 
this morning, sir.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Levin. I know you've probably been working on it, 
and you've been helpful in getting us those numbers.
    We thank you again and we will see you over at the Capitol 
Visitor Center.
    We are adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                          operation moshtarak
    1. Senator McCain. General Paxton, the traditional epicenter of 
Taliban influence within Afghanistan has been based in Kandahar. Why 
did we decide to devote our manpower and resources to Marja, rather 
than controlling Kandahar and bringing the same sort of commitment to 
restoring the authority of the Afghan Government and providing good 
governance and adequate services and security there?
    General Paxton. The first phase of operations targeting Kandahar 
was to take away the insurgents' base of operations in Central Helmand 
that directly affects the security of Kandahar City. While ongoing 
operations in southern Afghanistan are currently focused on Central 
Helmand, they serve primarily as shaping efforts for upcoming 
operations in Kandahar.
    The area of the Central Helmand River Valley has been a historical 
stronghold and safe haven for insurgents where they profit from the 
narcotics trade and unimpeded freedom of movement. A body of reporting 
from the last 12 months suggests the Taliban were using Marja as a 
staging area to launch attacks, and smuggle drugs and weapons to 
outlying areas. The Taliban had also mined key lines of communication, 
fortified fighting positions, stockpiled weapons caches, and 
intimidated the local population throughout Nad Ali District. Marja was 
a specific area in Central Helmand from which Taliban insurgents were 
exploiting the local population and launching attacks against coalition 
forces and Afghan National Security Forces (ANSF) as well as 
influencing the insurgency within Kandahar City. Helmand also benefits 
from stronger provincial leadership than Kandahar. Ghulam Mangal, the 
Helmand governor, and much of his staff are supportive of Government of 
the Islamic Republic of Afghanistan (GIRoA), capable of implementing 
development programs, and actively compete against malign powerbrokers.
    Operations have been ongoing since the beginning of this year to 
improve the security in Kandahar and its surrounding areas. Now that 
the insurgent base of support in Central Helmand River Valley has been 
degraded, our operational focus will increasingly shift to Kandahar 
City itself. Operations to secure Kandahar City will commence when the 
right force is in place, and the proper shaping efforts have had their 
effect.

         impact of pakistani captures of afghan taliban leaders
    2. Senator McCain. Secretary Flournoy, since the offensive in Marja 
began, the media has reported a significant and apparently successful 
effort to capture or kill Afghan Taliban leaders within Pakistan. What 
can you tell me about these recent efforts?
    Secretary Flournoy. We applaud recent operations by the Pakistan 
military (PAKMIL). Operations such as these disrupt enemy leadership 
and do a great deal to deny militants safe haven. This particular 
operation has also highlighted the PAKMIL's ability to successfully 
target key militant leaders. We encourage more operations against 
militant groups and stand ready to support the Government of Pakistan 
if it so requests.

    3. Senator McCain. Secretary Flournoy, what led to the decision 
from Pakistani authorities to make the move now?
    Secretary Flournoy. The Government of Pakistan, as well as the 
PAKMIL, has become aware that violent extremist organizations are a 
threat to its national security. These operations demonstrate the 
PAKMIL's ability to successfully target key militant leaders. We hope 
Pakistani authorities continue to engage insurgent leadership, though 
it is unclear what effect such operations will have over the long-term.

    4. Senator McCain. Secretary Flournoy, what long-term effect do you 
think this will have on the Afghan Taliban and their ability to hide in 
Pakistan?
    Secretary Flournoy. The Afghan Taliban continues to maintain safe-
havens within Pakistan. We continue to work with the Government of 
Pakistan and the PAKMIL to advise them and assist with their 
counterinsurgency operations. As the operational tempo of PAKMIL forces 
continues to increase, U.S. security assistance programs will be of the 
utmost importance to Pakistan's stability, security, and ability to 
engage all militant groups within its borders effectively.

    5. Senator McCain. Secretary Flournoy, will Taliban troops fighting 
in Afghanistan be significantly impacted?
    Secretary Flournoy. While operations such as these are positive 
steps for Pakistan both operationally and politically, the Afghan 
Taliban still maintain safe-havens within Pakistan. The long-term 
effects of this particular operation are unclear but demonstrate the 
PAKMIL's ability to reach the militants it targets. Nevertheless, the 
Taliban remain a capable and effective force.

    6. Senator McCain. Secretary Flournoy, what do these successful 
operations against Afghan Taliban leaders mean to the Pakistani 
Taliban?
    Secretary Flournoy. The Afghan and Pakistani Taliban are 
interconnected. They share support networks and resources to such a 
degree that successful action against one may degrade the ability of 
the other. Yet until both organizations are defeated, the Pakistani 
Taliban will continue to be a significant threat to both the Government 
of Pakistan and international security.

                rules of engagement and civilian deaths
    7. Senator McCain. Secretary Flournoy, despite all efforts to 
reduce civilian casualties, there have been reports that civilians have 
been killed and President Karzai asked publicly for the North Atlantic 
Treaty Organization (NATO) forces to do even more to hold down civilian 
casualties. On Sunday, there were reports of a NATO airstrike on a 
convoy in a province adjacent to Helmand in which as many as 33 
civilians were killed. How many civilians have been killed in the 
fighting?
    Secretary Flournoy. [Deleted.]

    8. Senator McCain. General Paxton, what has been the major cause of 
civilian deaths?
    General Paxton. The vast majority of civilian casualties are caused 
by insurgent attacks. They show a total disregard for civilians caught 
in the cross-fire, or in the callous emplacement of improvised 
explosive devices (IED) that have a disproportionate affect on the 
local populace. Frequently, insurgents will conduct their attacks 
deliberately using civilians as shields, in order to protect themselves 
from coalition force counter-fires.
    Regarding coalition-caused civilian casualties, the majority have 
resulted from the employment of indirect fires and close air support 
(CAS). In Central Helmand there have been 21 civilian casualties since 
the beginning of Operation Moshtarak. A majority of these (12) occurred 
from one incident on 15 February when marines and Afghan National Army 
(ANA) were taking casualties in an engagement and requested fire 
support. Three High Mobility Artillery Rocket System rockets were 
launched in response to the marines' request for fire support. One of 
the rockets impacted the purported insurgent fighting position, where 
it was later alleged that civilians were present. There is an ongoing 
investigation into this incident.

    9. Senator McCain. General Paxton, describe the efforts to avoid 
air strikes and other measures taken to reduce civilian deaths. Have 
new restrictions been applied to other kinds of firepower, such as 
multiple launch rocket systems, artillery, or mortars?
    General Paxton. Shortly after assuming command of International 
Security Assistance Force (ISAF), General McChrystal, recognizing the 
need to take greater measures in order to protect the population, 
issued a new Tactical Directive, dated 6 July 2009. This directive 
requires all commanders to carefully consider whether or not to use 
force in any situation, and to use the most appropriate level and type 
of force in close proximity to civilian residential compounds. 
Understanding that the population is the center of gravity in a 
counterinsurgency (COIN) campaign, General McChrystal wants commanders 
to protect the population from the effects of our fires, while at the 
same time providing for appropriate protection of our own forces. This 
directive does not preclude the use of CAS or indirect fires (IDF) if 
necessary for self-defense. In addition, the Rules of Engagement (ROE) 
clearly provide no restrictions on the use of fires to protect our 
forces under current or imminent threat, but tempered judgment must be 
applied.
    There are frequently situations where alternatives to the use of 
kinetic fires are more appropriate. Small-arms fire and maneuver, 
withdrawal, or deescalation often make more sense than using CAS or 
IDF, which may cause extensive collateral damage and risk alienating 
the local population. In other situations, doing nothing may be the 
best reaction to the enemy, particularly if the enemy is in amongst 
noncombatants and civilians--the center of gravity whose hearts and 
minds we are trying to win. General McChrystal will continue to 
emphasize adherence to tactical directives designed to reduce the 
potential of civilian casualties and reinforce his intent at all levels 
of command. It is imperative that tactical operations not undermine the 
overall strategic effort.

    10. Senator McCain. General Paxton, have commanders in the field 
asked for any changes to the rules?
    General Paxton. There have been no requests from field commanders 
in Afghanistan asking for changes to the tactical directive, and no 
changes have been made to the ROE, which provide for the inherent right 
of self-defense.

                           taliban resistance
    11. Senator McCain. Secretary Flournoy, prior to the battle 
starting, Taliban leaders were quoted as being willing to stand and 
fight to the death and the media reported new combat forces flowing 
into Marja to increase Taliban numbers. Since the battle began, 
however, it appears that many of the Taliban may have slipped out of 
Marja or may have tried to blend in with the civilian population. Did 
the Taliban flee or did they stand and fight?
    Secretary Flournoy. [Deleted.]

    12. Senator McCain. Secretary Flournoy, if resistance is less than 
expected, will the operation be as decisive as we had hoped in routing 
the Taliban so that they don't return?
    Secretary Flournoy. [Deleted.]

    13. Senator McCain. Secretary Flournoy, are the citizens of Marja 
helping NATO and Afghan forces identify Taliban insurgents and their 
IEDs, booby-traps, and weapons caches?
    Secretary Flournoy. [Deleted.]

    14. Senator McCain. Secretary Flournoy, what is the sense of where 
the Taliban might have gone if they fled?
    Secretary Flournoy. [Deleted.]

    15. Senator McCain. General Paxton, will we have to seek another 
decisive battle on other ground?
    General Paxton. We are at a critical juncture. Our forces are in 
the process of trying to reverse the insurgent momentum. The aim is to 
separate the population from the insurgents and convince both the 
Afghan people and the Taliban that change is inevitable. In order to 
accomplish our goals, there may indeed be additional decisive battles 
in other places of Afghanistan. In the near-term, the main ISAF effort 
will shift from Central Helmand to Kandahar when the right force is in 
place, and our shaping efforts have had the proper effect.

                performance of the afghan national army
    16. Senator McCain. Secretary Flournoy, reports on the performance 
of the ANA in support of Operation Moshtarak have been varied thus far. 
While there are scattered examples of the ANA performing ably and 
courageously, there seem to be just as many, if not more, examples of 
the Marine Corps leading and the ANA following in almost every aspect. 
On whole, it seems the day when the ANA is capable of taking any 
significant role in the command, control, or execution of missions 
without robust American assistance is many years away. How would you 
assess the performance of the ANA in current operations in Helmand?
    Secretary Flournoy. The ISAF continues to conduct operations and 
planning with Afghanistan National Security Forces (ANSF) to increase 
their capabilities so they can eventually conduct independent 
operations. The intent over the past year has been to field infantry-
centric forces quickly to get more ANSF into the fight and to delay the 
growth of enablers (such as airlift, logistics, intelligence, et 
cetera) to future years of development. The ISAF Commander's strategy 
involves intense coalition partnership with ANSF in order to make up 
for the lack of enablers and other gaps in the force due to the need to 
create infantry forces quickly. As we move into fiscal year 2011 and 
beyond, ISAF will focus on increasing the capacity of the ANSF and 
establishing enabler units to allow them to take a greater leadership 
role in conducting independent operations and planning.

    17. Senator McCain. General Paxton, what role has the ANA played in 
the conduct of operations in Helmand?
    General Paxton. We formed an embedded partnership with the ANA for 
operations in Central Helmand River Valley. They stood shoulder to 
shoulder with coalition forces at all levels through the planning and 
execution phases of operations for Central Helmand. This was the first 
major operation in Afghanistan in which the ANSF took the lead for 
planning and execution. The final operations plan was briefed to 
President Karzai, following which he provided his guidance and 
approval.
    On 13 Mar 10, approximately 750 ANSF conducted an airborne 
insertion with coalition forces into Marjah and Nad-e-Ali. As of 06 Mar 
10, the 1/215th ANA Brigade (BDE) and the 3/215th ANA BDE, partnered 
with Task Force (TF) Leatherneck and TF Helmand respectively, had 
successfully cleared the towns of Marjeh and Nad-e-Ali. The ANSF were a 
critical component of this operation, and represented GIRoA's committed 
involvement and support. The ANSF and coalition forces continue to 
provide a secure environment, enabling improved security, governance, 
and development in Central Helmand.

    18. Senator McCain. General Paxton, is it accurate to say that the 
U.S./NATO force is still taking the lead both in the planning and 
execution of all missions?
    General Paxton. U.S. and NATO forces are partnering with the ANSF 
as never before. We are working very closely at all levels of planning 
and execution. As the ANSF capabilities improve, they are increasingly 
taking a lead role in the planning and execution of operations. The 
ANSF do not retain all of the organic capabilities inherent to U.S. and 
NATO forces and are limited in their capacity to support certain 
specialty functions like route clearance, tactical airlift, and various 
other logistic functions. We will continue to provide crucial support 
in these areas until ANSF capacity is increased.

    19. Senator McCain. Secretary Flournoy, is it realistic to believe 
that the ANA will be capable of taking the lead in the planning and 
execution of missions by the July 2011 deadline on which U.S. forces 
are scheduled to begin withdrawing from the Afghanistan?
    Secretary Flournoy. By July 2011, we anticipate that some elements 
of the ANA will be capable of taking the lead to plan and execute 
missions in some parts of the country. I want to ensure that what has 
been said about July 2011 is well understood. As President Obama has 
previously indicated, July 2011 will mark the beginning of a transition 
of our forces out of Afghanistan and a period in which the Afghan 
Government will take on more responsibility. He did not say that after 
July 2011 there would be no forces from the United States or allied 
countries in Afghanistan. He did not say that we will switch off the 
lights and close the door behind us. The pace at which the transition 
occurs will depend on conditions on the ground.

                 governance and reconstruction efforts
    20. Senator McCain. Secretary Flournoy, we've been told that the 
combat offensive in Marja will be followed by a substantial effort by 
U.S. and Afghan civilian agencies to reestablish effective civilian 
control over Marja and demonstrate the ability of the Afghan Government 
to bring good governance and basic services to its people. Which U.S. 
and Afghan civilian agencies are involved in this effort?
    Secretary Flournoy. The Department of State is the U.S. Government 
lead agency for the integration of civilian agencies in the effort to 
build governance and development capacity throughout Afghanistan. The 
civilian effort in Helmand is largely led by the Helmand Provincial 
Reconstruction Team (PRT) and includes contributions from the U.S. 
Agency for International Development, the Department of Agriculture, 
the Department of Treasury, and the Drug Enforcement Agency. The lead 
Afghan agency is the Independent Directorate of Local Governance. It is 
responsible for implementing the District Delivery Program, with the 
local lead being Provincial Governor Gulab Mangal. Governor Mangal 
coordinates with the PRT, district governors, and provincial and 
district-level line directors from the Ministry of Agriculture, 
Ministry of Health, and the Ministry of Rural Rehabilitation and 
Development.

    21. Senator McCain. Secretary Flournoy, who is coordinating this 
civilian surge?
    Secretary Flournoy. A key civilian official in the ISAF leadership 
is Ambassador Mark Sedwill, who was recently appointed as the NATO 
Senior Civilian Representative. One of his primary responsibilities is 
to improve coordination in the delivery of civil effects to the ISAF 
campaign. His Afghan counterpart, tasked with improving local 
governance, is Mr. Jelani Popal of the Independent Directorate of Local 
Governance. This partnered structure is mirrored at lower echelons: 
PRTs provide civilian expertise and coordination to ISAF brigade-level 
commanders and Afghan provincial governors, and District Support Teams 
partner with battalion-level task force commanders and Afghan district 
governors.

    22. Senator McCain. Secretary Flournoy, what are the specific goals 
that are going to be accomplished and what is the timeline for 
achieving them?
    Secretary Flournoy. The Marja operation anticipated a 30-day 
timeline to ``clear'' the main objective area of significant Taliban 
influence, followed by ``holding'' and ``building'' phases where the 
focus would shift to governance and development initiatives. Key tasks 
to be accomplished in the ``hold'' and ``build'' phases include 
appointing qualified, capable district governors and line directors; 
filling local Afghan National Police tashkiels (manning documents) with 
trained officers and policemen; initiating key infrastructure projects 
that lead to job creation and provide economic alternatives to poppy 
cultivation; and establishing district-level justice systems to provide 
legitimate rule of law. The ISAF and the Senior Civilian Representative 
are developing metrics that assess progress achieving these goals, and 
the decision to transition security lead in Helmand to the ANSFs will 
be conditions-based.

    23. Senator McCain. Secretary Flournoy, what are the major 
obstacles to achieving these goals?
    Secretary Flournoy. The long-term presence of the Taliban in Marja 
has made governance progress difficult. Despite the presence of the 
ISAF and ANSFs, the local population remains fearful of the Taliban and 
concerned that they will be subject to retribution if ISAF and ANSF 
forces are withdrawn at the end of the operation. The Marja area 
includes more than 100 square kilometers of farmland, irrigation 
systems, and sub-villages; the large area involved is difficult to 
secure and vulnerable to Taliban re-infiltration efforts.
    Despite significant advance planning and coordination between ISAF 
and the Government of Afghanistan, governance progress has been slower 
than expected. Several ministries' progress has been impeded by limited 
manpower and resources, and lack of personnel with local ties and the 
trust of the population.

    24. Senator McCain. Secretary Flournoy, how long will U.S. and NATO 
forces remain in Marja to ensure a secure environment?
    Secretary Flournoy. Operations in Marja are driven by conditions. 
The role and strength of the ISAF and civilian presence are linked to 
progress in establishing security and the requisite local governance 
capacity to maintain it. In accordance with the NATO Operational Plan, 
ISAF and the NATO Senior Civilian Representative are establishing clear 
metrics to measure progress toward the goal of transitioning the 
security and governance lead to Afghan forces in order to ensure this 
is not an open-ended commitment. Decisions over U.S. and NATO force 
presence and roles will be informed by this process. Although the goal 
is to begin transitioning some districts and provinces by the summer of 
2011, Marja and Helmand are among the most highly contested regions in 
Afghanistan and are unlikely to be early candidates for transition.

                    poppy production and its impacts
    25. Senator McCain. Secretary Flournoy, Marja is a major center of 
poppy production in Helmand and the trade in poppy and opium products 
have become the basis of the economy for farmers and others living 
there. The U.S. military does not see the poppy trade per se as their 
target, yet without replacing the poppy with a legitimate form of 
agriculture products, the politics and economy of Marja will remain 
something that can be used by the Taliban to support the insurgency. 
What is the plan to address the poppy issue in Marja?
    Secretary Flournoy. Poppy cultivation and narco-trafficking are 
major threats to stability and security in Marja, Helmand province. 
Addressing the poppy issue in Marja requires first establishing 
security and then the delivery of alternative livelihoods and 
development. A whole-of-government approach needs to be taken. Unity of 
effort is critical for success in Marja and other key locations in 
Afghanistan. To address the connection between the Afghan insurgency, 
terrorism, corruption, threat finance, and narcotics production and 
trafficking, law enforcement and alternative development efforts must 
be effectively integrated into U.S. COIN plans. The military will 
continue to work with representatives from the United States and the 
international community to ensure the proper integration of 
counternarcotics efforts into the COIN campaign.

    26. Senator McCain. Secretary Flournoy, how do we break the link 
between the poppy trade and the Taliban?
    Secretary Flournoy. Breaking the link between the poppy trade and 
the Taliban requires a unity of effort to provide security and the 
development of licit livelihoods.
    To address the nexus between the Afghan insurgency and terrorism, 
corruption, threat finance, and narcotics production and trafficking, 
law enforcement and alternative livelihood efforts must be effectively 
integrated into U.S. COIN plans. Our efforts to increase security and 
stability are designed to help create an environment where farmers are 
no longer coerced into poppy cultivation by the insurgents and where 
they have access to licit economic opportunities.
    Meanwhile, coordinated interdiction efforts need to continue in 
order to increase the pressure and risk on narcotics networks that 
support the Taliban. The Department of Defense (DOD), in partnership 
with other U.S. departments and agencies, provides training, equipment, 
and infrastructure support to the Counternarcotics Police of 
Afghanistan in order to develop a more capable, effective, and self 
reliant force that can affect the narcotics-insurgency-corruption 
nexus.

                july 2011 timeline for troop withdrawal
    27. Senator McCain. Secretary Flournoy, on Sunday, General Petraeus 
described our operations in Marja as the ``initial salvo'' in a 
military campaign that could last 12 to 18 months. President Obama has 
said, however, that he intends to start withdrawing our troops by July 
2011, which is less than 18 months from now. Given the uncertainty we 
face regarding how long it may take to achieve our military objectives, 
and the even more difficult task of estimating how long it will take to 
restore and build government legitimacy and basic services in the areas 
we are clearing and holding, do we run the risk of running out of time 
for our military and civilian campaign plans if we adhere to plan to 
start drawing down troops by July 2011 regardless of where we stand on 
the ground?
    Secretary Flournoy. The July 2011 timeline is not an end date for 
U.S. and NATO involvement in Afghanistan. It represents the beginning 
of a process to transition the security lead to the ANSFs. This process 
will begin in districts and provinces that enjoy a high degree of 
security and adequate governance to preserve those conditions. As more 
secure provinces move through the transition process, the ISAF and the 
Afghan Government will have the opportunity to refocus resources to 
more contested regions such as Helmand province.

    28. Senator McCain. General Paxton, where do you think the next 
phase of the longer campaign will be focused?
    General Paxton. Following operations in Central Helmand, the next 
main effort for ISAF will be concentrated in Kandahar. Key districts 
and population centers in Kandahar will be the focus in executing the 
COIN campaign for the next 12-18 months.

    29. Senator McCain. General Paxton, how many more U.S. troops will 
be needed from the 30,000 increase to support this next phase?
    General Paxton. Detailed planning is being conducted between ISAF 
and the ANSF with respect to the numbers and types of units needed for 
the next phase of the COIN campaign in Kandahar. However, current plans 
have an additional Brigade Combat Team (3.5K) deploying to Regional 
Command-South in support of these upcoming operations.

    30. Senator McCain. General Paxton, when do you think this next 
phase will start?
    General Paxton. It would be premature to give a specific timeline 
as plans are still being developed. With that said, future operations 
in Kandahar are projected to begin when proper conditions have been 
set. We anticipate this will be the case in the summer of 2010 
timeframe.

                        taliban recruiting gains
    31. Senator McCain. General Paxton, recent press reporting cites 
U.S. military intelligence forces as estimating that the Taliban have 
been able to build their strength by 35 percent over the past 2 years 
in the Afghan-Pakistan theater, up by 7,000 more than in 2008 to about 
27,000. The number of al Qaeda fighters is estimated to be about 600, 
moving between the two countries. What is your estimate of the Taliban 
troop strength in the Afghan-Pakistan theater?
    General Paxton. While DIA acknowledges those numbers, our current 
policy is to not provide estimates of insurgent manpower in Afghanistan 
and we have low confidence in any such estimates given the fluid, 
dynamic, and multi-faceted nature of the threat. The number of active 
insurgent fighters fluctuates based on the time of the year, funds 
available, the operational activities of ISAF/Afghan forces, and a 
variety of local or regional factors.

    32. Senator McCain. General Paxton, has the Taliban been as 
successful in recruiting as this article says?
    General Paxton. The success of the Taliban's recruiting efforts is 
largely dependent on the region in question. The Taliban is moderately 
successful in garnering local support in areas which are geographically 
excluded from the Afghan Government's sphere of influence and contain 
higher concentrations of young, impoverished, Pashtun males. Taliban 
recruiters also deliberately target madrassas, or religious schools, 
inside Afghanistan. The Taliban separate the younger, more 
indoctrinated, male students at these schools and send them to Pakistan 
for specialized training, usually for the purpose of building a pool of 
available suicide bombers.

    33. Senator McCain. General Paxton, according to the military 
intelligence official, the Taliban have taken advantage of the lack of 
security and government presence in the south and the lack of basic 
government services and has offered food and money. They have also made 
the point that, ``We will still be here after the infidels have gone.'' 
What is the plan to break the force of these recruiting tools?
    General Paxton. We will continue to pursue our COIN-centric 
strategy throughout Afghanistan, but particularly in the south and 
where the Taliban have exploited a lack of security to intimidate local 
populations into complying with their demands. We will attempt to sever 
the Taliban's hold in areas where they currently have influence, and 
facilitate GIRoA capacity in these areas. We must be vigilant in 
identifying and eliminating Taliban influence and prevent their return 
to these areas.

         defection of afghan national security forces personnel
    34. Senator McCain. Secretary Flournoy, late last week, the New 
York Times ran a story about 25 Afghan national police officers in 
Wardak province who are believed to have defected to the Taliban along 
with their equipment, which included trucks, machine guns, and other 
heavy weapons. Have you received any additional information about this 
incident? Was this a result of a dispute over pay as some have 
asserted, or rather an expression of sympathy/loyalty to the Taliban?
    Secretary Flournoy. We were not aware of this incident.

    35. Senator McCain. Secretary Flournoy, do you believe such 
incidents to be isolated events or part of a larger, systemic pattern 
of defection by ANSF as the U.S/NATO offensive efforts increase?
    Secretary Flournoy. In a COIN fight such as in Afghanistan, 
incidents of security forces defecting would not be unusual--
particularly among police and in insurgent strongholds with high levels 
of intimidation--as the goal of both sides is to win the support of the 
population. However, DOD does not see a systemic pattern of defections 
emerging within the ANSFs.

                 detention of captured taliban fighters
    36. Senator McCain. General Paxton, are we capturing significant 
numbers of Taliban fighters? If so, how many?
    General Paxton. Presently we have 355 known Taliban (TB) in 
detention at the Detention Facility in Parwan (DFIP), and another 300 
possible TB affiliates comprised of detainees identified by capturing 
units as Anti-Afghan Forces or Anti-Coalition Militia. We are 
constantly assessing these detainees to determine in which category 
they actually belong--Taliban or other. We currently have 655 in 
detention, of which we have confirmed 355 as Taliban. 153 of the 655 
have been detained since December 2009, of which 37 were detained 
within the last month.

    37. Senator McCain. General Paxton, NATO forces have been operating 
under the 96-hour rule that requires an Afghan court to review the 
grounds for detaining a person and issue authority for detention beyond 
96 hours. Have there been any problems complying with the 96-hour rule?
    General Paxton. There has never been a requirement for Afghan 
courts to review a detention within 96 hours. The ISAF rule (from JFC-
Brunssum) required that detainees be released or turned over to Afghan 
authorities within 96 hours of capture. COMISAF has the authority to 
grant an extension beyond 96 hours for exceptional circumstances (e.g., 
medical treatment or logistical/transportation issues preventing 
release).
    Recently, the Secretary of Defense authorized an exception to U.S. 
forces that fall under NATO operation control of ISAF. The first U.S. 
general/flag officer in the capturing unit's chain-of-command may now 
approve detention for up to 14 days, if the detention might yield vital 
intelligence.

    38. Senator McCain. Secretary Flournoy, where are Taliban being 
captured during the Marja operation being held?
    Secretary Flournoy. The majority of individuals detained during the 
Marja operation have been either captured directly by ANSFs or 
transferred to ANSF by the ISAF in accordance with ISAF procedures 
within a few days of capture. Such individuals are typically held in 
the National Directorate for Security (NDS) facility in Lashkar Gah or 
are transferred to other NDS facilities because of capacity limitations 
at Lashkar Gah. Individuals captured by U.S. Operation Enduring Freedom 
forces who meet the criteria for detention are transferred to the U.S. 
Detention Facility in Parwan for detention consistent with the law of 
war.

    39. Senator McCain. Secretary Flournoy, where is the court 
overseeing detention of captured Taliban during this operation?
    Secretary Flournoy. The primary-level court in the Marja region is 
located in Lashkar Gah. Most detainees held at the NDS facility in 
Lashkar Gah would be tried in this court. It is my understanding that, 
in some cases, NDS transfers high-level individuals to Kabul for 
detention and trial.

                 u.s. and afghan troops and casualties
    40. Senator McCain. Secretary Flournoy, how many U.S. combat forces 
are involved in the offensive?
    Secretary Flournoy. [Deleted.]

    41. Senator McCain. Secretary Flournoy, how many are Afghans?
    Secretary Flournoy. [Deleted.]

    42. Senator McCain. Secretary Flournoy, how many troops are from 
NATO partners?
    Secretary Flournoy. [Deleted.]

    43. Senator McCain. Secretary Flournoy, how many U.S. casualties 
have there been?
    Secretary Flournoy. [Deleted.]

    44. Senator McCain. Secretary Flournoy, how many Afghan casualties 
have there been?
    Secretary Flournoy. [Deleted.]

    45. Senator McCain. Secretary Flournoy, how many NATO casualties 
have there been?
    Secretary Flournoy. [Deleted.]

    46. Senator McCain. Secretary Flournoy, what is causing most of the 
casualties?
    Secretary Flournoy. [Deleted.]

                             medical issues
    47. Senator McCain. Secretary Flournoy, in March 2009, Secretary 
Gates directed that medical care and evacuation capabilities in 
Afghanistan achieve parity with those available in Iraq. Have we 
achieved that goal?
    Secretary Flournoy. Medical care and evacuation capabilities in 
Afghanistan have achieved parity with those in Iraq. U.S. forces in 
Afghanistan have rigorously applied the Secretary of Defense's 1-hour 
evacuation standard, from the time of incident to arrival at a 
resuscitative surgical care facility. Standardized data collection and 
reporting have been implemented with weekly reviews briefed at the U.S. 
Central Command (CENTCOM) and Joint Staff level. Accordingly, medical 
facilities and evacuation assets were deployed as close as possible to 
the population at risk. The result was a substantial decline in the 
average evacuation times--which has been maintained at well under one 
hour since April 2009--and greatly improved access to definitive care 
by deployed U.S. forces.

    48. Senator McCain. Secretary Flournoy, what have we done to 
increase MEDEVAC and combat medical care in Afghanistan?
    Secretary Flournoy. [Deleted.]

    49. Senator McCain. Secretary Flournoy, mild traumatic brain injury 
(TBI), or concussion, is a common occurrence in the field as a result 
of exposure to blast and vehicle accidents. Multiple concussions appear 
to greatly increase the risk of long-term injury and psychological 
problems. The committee has learned that new protocols are being 
developed by the Joint Staff to provide for continuous screening and 
evaluation TBI in the field. What guidance have the commanders in 
Afghanistan received concerning screening for brain injury in our 
fighting servicemembers?
    Secretary Flournoy. CENTCOM Individual Protection and Individual/
Unit Deployment Policy dated September 10, 2008 (Sec.  15.K.4. B.1) 
delineates theater policy regarding blast injury protocols in which 
patients with possible exposure to a blast injury require an evaluation 
by a medical provider and annotation of the event in their medical 
records. In the near future, DOD-wide guidance will expand on these 
protocols. The Deputy Secretary of Defense will release a Directive-
Type Memorandum (DTM) on ``Policy Guidance for Management of 
Concussion/Mild Traumatic Brain Injury in the Deployed Setting.'' The 
DTM will establish policy, assign responsibilities, and provide 
procedures on the medical management of mild TBI in the deployed 
setting for all leaders within DOD, servicemembers, and medical 
personnel engaged in ongoing DOD missions. It will standardize 
terminology, procedures, leadership actions, and medical management to 
provide maximum protection of those servicemembers. This document 
outlines mandatory evaluation and reporting requirements. CENTCOM will 
release a fragmentary order to implement this policy, directing unit-
level leaders to screen servicemembers exposed to potentially 
concussive events and track/document the exposure. Additionally, 
CENTCOM will develop a potentially concussive event exposure module in 
its existing database of record used for reporting significant 
activities.

    50. Senator McCain. Secretary Flournoy, what are the operational 
implications for servicemembers who continue to fight after having 
sustained a mild TBI, as well as those who may have sustained multiple 
injuries?
    Secretary Flournoy. Current research demonstrates that there is an 
increased risk for persistent symptoms with multiple concussions. Per 
the draft DTM, ``Policy Guidance for Management of Concussion/Mild 
Traumatic Brain Injury in the Deployed Setting,'' and the latest in 
concussive injury research, servicemembers who may have been exposed to 
a concussive event undergo a Military Acute Concussion Evaluation. If 
the servicemember presents no symptoms, he or she is reevaluated and 
returned to duty. If a servicemember suffers repeated concussions 
within a certain timeframe, he or she undergoes a neurological 
evaluation by a qualified provider, neuro-imaging (if appropriate), a 
neuropsychological assessment by a psychologist, and a function 
assessment by an occupational or physical therapist. Once these 
assessments are completed, a neurologist determines the servicemember's 
duty status, with one of the following dispositions: (1) Return the 
member to the United States; (2) Send the member outside the area of 
responsibility (AOR), but within the theater; (3) Maintain the member 
in the AOR, but restrict to a base; or (4) Return to full duty.

    [Whereupon, at 3:56 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
